            Smithsonian Institution
            Office of the Inspector General


            In Brief                                Oversight of Contractors at Smithsonian
                                                    Business Ventures
                                                    Report Number A-07-05, February 25, 2008



Why We Did This Audit                  What We Found

This audit is the second phase of      SBV in many instances did not ensure revenues from contractors were collected
our coverage of executive              timely or recorded accurately. SBV needed to improve its procedures for
compensation at Smithsonian            financial monitoring in two divisions, Journeys and Concessions. In contrast to
Business Ventures (SBV). The           financial contract provisions, SBV generally provided effective oversight of
audit follows up on accounting         operational issues, such as the quality of contractor activities, which was sufficient
weaknesses and weaknesses in           to provide reasonable assurance that contractors were complying with non-
contractor oversight noted in          financial contract terms.
earlier audits.
                                       For Journeys, we found that SBV did not adequately or timely reconcile cash
Our objectives were to assess          received from its call center contractor to amounts due from its travel tour
whether SBV has adequate               operations. As a result, SBV did not timely identify cash shortfalls of $607,000
procedures for ensuring the            from over 100 tours completed through the end of FY 2006. After further
accuracy of revenues reported by       examination, SBV Accounting identified an additional $75,000 due from a travel
contractors; SBV’s practices for       tour contractor in FY 2007. As of September 30, 2007, SBV had recovered
collecting and recording proceeds;     $607,000 of these shortfalls.
and whether SBV adequately
oversees contractors to ensure         For Concessions, we found that SBV overpaid a contractor and did not record the
compliance with key contract           correct amount of revenue from motion ride simulators during the period
terms.                                 August 2004 to January 2007. SBV omitted credit card sales and used incorrect
                                       commission rates in calculating concessions revenue from this contract. As a
What We Recommended                    result, SBV overpaid the contractor and understated revenue by about $283,000.
                                       SBV identified the problems in February 2007 and recovered the money due from
We made five recommendations           the contractor and corrected its accounting records by the end of FY 2007.
to strengthen oversight of
contractors. We recommended            SBV’s contractor monitoring weaknesses were caused by an absence of written
that management develop written        procedures, inadequately defined responsibilities, insufficient financial staff
procedures that clearly define         coupled with high turnover rates, and a lack of periodic financial audits and
employee responsibilities for          detailed reconciliations of cash receipts. To its credit, SBV initiated actions in
monitoring contracts, provide for      FY 2007 to address some of the weaknesses we identified. For example, the SBV
periodic audits of contractor cash     Controller implemented a policy requiring that all journal entries into the
receipts, and require detailed         accounting system be approved by a supervisor in order to detect irregularities
monthly reconciliations of             more timely.
contractor revenues.
                                       Overall, for the contracts we reviewed, we did not find incorrect reporting of
SBV management concurred with          contractor revenues to a degree that would have had a material effect on SBV’s
the report’s findings and              executive compensation.
recommendations and proposed
corrective actions that will resolve   For additional information or a copy of the full report, contact the Office of
the recommendations.                   the Inspector General at (202) 633-7050 or visit http://www.si.edu/oig.
RESULTS IN BRIEF

We found that SBV in many instances did not ensure revenues from contractors were
collected timely or recorded accurately. SBV needed to improve its procedures for
financial monitoring in two divisions, Journeys and Concessions. In contrast to
financial contract provisions, SBV generally provided effective oversight of
operational issues, such as the quality of contractor activities, which was sufficient to
provide reasonable assurance that contractors were complying with non-financial
contract terms.

For Journeys, we found that SBV did not adequately or timely reconcile cash received
from its call center contractor to amounts due from its travel tour operations. As a
result, SBV did not timely identify cash shortfalls of $607,000 from over 100 tours
completed through the end of FY 2006. After further examination, SBV Accounting
identified an additional $75,000 due from a travel tour contractor in FY 2007. As of
September 30, 2007, SBV had recovered $607,000 of these shortfalls.

For Concessions, we found that SBV overpaid a contractor and did not record the
correct amount of revenue from motion ride simulators during the period
August 2004 to January 2007. SBV omitted credit card sales and used incorrect
commission rates in calculating concessions revenue from this contract. As a result,
SBV overpaid the contractor and understated revenue by $283,000. SBV identified
the problems in February 2007 and recovered the money due from the contractor
and corrected its accounting records by the end of FY 2007.

SBV’s contractor monitoring weaknesses were caused by an absence of written
procedures, inadequately defined responsibilities, insufficient financial staff coupled
with high turnover rates, and a lack of periodic financial audits and detailed
reconciliations of cash receipts. To its credit, SBV initiated actions in FY 2007 to
address some of the weaknesses we identified. For example, the SBV Controller
implemented a policy requiring that all journal entries into the accounting system,
including those related to contractor revenues, be reviewed, approved, and initialed
by a supervisor in order to detect irregularities more timely.

Overall, for the contracts we reviewed, we did not find incorrect reporting of
contractor revenues to a degree that would have a material effect on SBV’s executive
compensation. However, to further strengthen oversight of all its contractors, we are
recommending that SBV develop written procedures that clearly define employee
responsibilities for monitoring contracts, provide for periodic audits of contractor
cash receipts, and require detailed monthly reconciliations of contractor revenues.




                                           2
BACKGROUND

Most of SBV’s revenue-generating operations are operated in-house by SBV
employees. Of SBV’s five major income-producing divisions, SBV uses contractors to
produce a large portion of the revenue in three: Smithsonian Journeys, Licensing,
and Concessions (a part of the Museum Retail division, which also includes stores
and theatres). Table 1 shows the total reported SBV revenues for the three activities
we reviewed for the period FY 2004 through the first quarter of FY 2007.

                                              Table 1
                              Total SBV Revenues for Selected Activities*

                     Fiscal Year             Journeys            Licensing     Concessions
                        2004                See footnote 3       $3,900,000     $6,967,000
                        2005                $4,507,000           $2,637,000     $9,017,000
                        2006                $5,442,000           $4,236,000     $8,538,000
                        20074               $1,054,000           $1,102,000     $1,485,000
                         Totals             $11,003,000          $11,875,000   $26,007,000
                 *dollars rounded to the nearest (000)

Contractors operate travel tours, licensing activities, and food and other concessions
under a number of different agreements. SBV generally receives a percentage of the
contractors’ revenues as provided for in the respective agreements. A brief
description of each activity follows.

Journeys. Smithsonian Journeys is an educational group tour program. SBV
programming and marketing staff manage the programs in cooperation with travel
partners nationwide. Journeys contracts with third-party tour operators to operate
most of the travel tours.

Licensing. The Licensing group contracts with third parties to sell Smithsonian-
branded products and services. Partnerships usually take the form of an agreement
in which SBV licenses to the third party the right to use the Smithsonian brand or
access the content of the Institution. Licensing comprises four primary activities:
Consumer Products, Smithsonian Books, Smithsonian Networks, and Smithsonian
Student Travel.

Concessions. The Concessions organization is part of SBV’s Retail Division.
Concession vendors generally own and/or manage the on-site business operations
and fall into two types of commercial enterprises: 1) food and beverage concessions
such as restaurants, outdoor food carts, and vending machines; and 2) other


3
    SBV did not take over travel tours until FY 2005.
4
    Reported revenues for the first quarter FY 2007.



                                                             3
concessions, which include experiential attractions such as flight simulators and a
carousel.

For the period FY 2004 through the first quarter of FY 2007, Smithsonian contracts
with revenues of $75,000 or more produced revenues of approximately $7.2 million
for Journeys, $4.6 million for Licensing, and $25.7 million for Concessions (see Table
2 below). We selected a sample of contracts from this universe to review.

                                           Table 2
                      Revenues from Contractors for Revenue-Generating
                                Contracts of $75,000 or More*

                        Fiscal         Journeys                Licensing       Concessions
                        Year
                        2004                                4 contractors     11 contractors
                                    See footnote 3
                                                            $ 787,000         $6,888,000
                        2005        13 contractors          6 contractors     11 contractors
                                    $2,855,000              $ 930,000         $8,938,000
                        2006        13 contractors          8 contractors     10 contractors
                                    $3,621,000              $2,183,000        $8,440,000
                        20075       8 contractors           7 contractors     7 contractors
                                    $699,000                $ 688,000         $1,425,000
                        Totals      $7,175,000              $4,588,000        $25,691,000
                    *dollars rounded to the nearest (000)

SBV also awards fulfillment contracts for the Catalogue and Magazine divisions that
support revenue generation. Fulfillment houses provide services such as call
handling, order processing, billing, and information management. We performed a
limited review of SBV’s oversight of fulfillment contracts. Table 3 shows the total
revenue processed through these fulfillment houses during the audit period.

                                         Table 3
                 Revenue Processed Through Fulfillment House Contractors*

                                   Fiscal         Catalogue             Magazine
                                   Year
                                   2004          $26,669,000           $35,900,000
                                   2005          $26,880,000           $36,900,000
                                   2006          $26,186,000           $37,000,000
                                        6
                                   2007          $12,376,000            $8,830,000
                                   Totals        $92,111,000           $118,630,000
                               *dollars rounded to the nearest (000)


For all income-producing divisions, responsibility for monitoring revenue-

5
    Reported revenues for the first quarter FY 2007.
6
    Reported revenues for the first quarter FY 2007.



                                                              4
generating contracts is shared among business division program managers and
financial staff, as well as SBV Accounting. Program managers monitor the
contractor’s execution plan and performance. The designated Contracting Officer’s
Representative (COR) is responsible for the administration of the agreement and
serves as the liaison with the vendor for all contractual matters. Business division
financial staffs assist management by reviewing contractor financial reports and
comparing the contractor reports to revenue recorded and cash received. They also
monitor budgeted to actual revenues and provide explanations for variances. SBV
Accounting is responsible for recording entries, preparing accurate and timely
monthly financial statements, and managing the month-end account closing process.

RESULTS OF AUDIT

SBV Journeys Did Not Adequately Monitor Payments from Travel Tour
Contractors

While we found that Journeys provided extensive oversight of the quality of tour
services, in many instances it did not adequately monitor payments from travel tour
contractors. More specifically, we found that Journeys did not perform sufficient
reconciliations of cash received from travel tour operations, made data entry errors
on tour pricing information, and did not timely record receivables due from its call
center contractor into SBV’s accounting system. These deficiencies, which resulted in
either late or under collections of tour proceeds of about $681,000, were caused by
the lack of both written contract monitoring procedures and clearly defined
responsibilities, and insufficient staff resources.

                               Journeys’ domestic and international travel tours
                               program depends on several outside tour operators
                               to run approximately 250 travel tours per year. We
                               observed that generally Journeys’ oversight of the
                               quality of tour operator services was extensive and
                               provided reasonable assurance that tour contractors
                               were fulfilling contract terms and amendments.
                               Journeys’ program managers routinely reviewed tour
                               operator marketing information, monitored
                               passenger reservations and cancellations, and used
                               passenger surveys and team study leaders to evaluate
                               the tours. Journeys’ director also prepared financial
   Journeys Travel Brochures   reports that facilitated management analysis of tour-
                               related revenue (budgeted and actual) during
                               monthly operating review meetings with SBV’s CFO.




                                          5
Inadequate Reconciliations. We identified weaknesses in Journeys’ monitoring of
payments from tour programs. We selected a sample of seven travel tours7 for
detailed review. In four of the seven tours, Journeys staff did not adequately reconcile
passenger payments received against the amounts due to SBV and did not collect
passenger payments amounting to $15,300 from the call center operator promptly
after the tours were completed.

We found:

    •    For a tour to Oman in February 2006, Journeys’ reconciliation did not
         identify $5,700 in payments due Journeys.
    •    The call center operator owed Journeys $5,4508 for a winter wildlife tour in
         February 2006.
    •    Journeys did not collect $2,545 owed from a tour to view Seattle glass art in
         May 2006.
    •    The call center operator owed Journeys at least $1,605 for a Trans Siberian
         railroad tour in September 2006.

While Journeys’ staff compared the call center passenger payment listings and tour
operator final invoices, their efforts in reconciling and following up on payments due
were not sufficient. We saw little evidence, either on the reconciliation forms or
other documentation, that Journeys financial staff ensured that the cash received by
SBV from the call center agreed to the revenue due Journeys according to the
contractors reports.9 Because tour reconciliation forms did not identify whether the
monies received agreed to the revenue due from the tours, management could not
readily assess whether Journeys had received all monies that were due.

When we discussed our preliminary observations with SBV, Journeys officials
indicated that its financial staff performed a detailed 2006 fiscal year-end analysis of
over one hundred tours and identified a total of about $607,000 that was due SBV

7
  We initially selected 11 tours for review. However, we combined five of the tours into one because
they were a part of a separate bill representing one tour operator who submitted SBV-earned
commissions on a monthly basis.
8
  This tour had an additional reconciliation problem. The program manager mistakenly recorded a
single passenger rate of $2,595 on the tour reconciliation sheet, $400 lower than the $2,995 rate per the
contract. We verified that SBV did receive payment for the higher rate of $2,995 for three passengers.
However, the additional $1,200 (3 passengers times $400) was not shown on the reconciliation sheet
and was not recorded as revenue to this particular tour code. At the time of our audit, SBV accounting
was reviewing this transaction to determine the proper accounting treatment.
9
  SBV accounting receives details of passenger payments and downloads them by tour code into the
Lawson accounting system. These payments are listed by passenger on a report titled “Activity
Reconciliation Report.” Journey’s financial staff use the report to verify passenger payments to the call
center’s passenger paid list and the tour operator’s final invoice.



                                                   6
from the call center for passenger deposits and other payments received for tours
dating back as far as July 2005.10 Journeys provided us with tour-level detail for about
$297,000 of the total covering tours for the period July 2005 through FY 2006.
Although the call center eventually provided Journeys with a summary attributing
the majority of the remaining $310,000 balance to credit card fees and other credits
due Journeys, SBV could not produce documents to support this remaining shortfall.
And, while we were able to trace most of our sample findings to Journeys’ analysis
and the call center summary, we could not fully reconcile our results because of the
lack of SBV documentation.

According to Journeys management, in June 2005, SBV outsourced Journeys’ in-
house call center to a private firm to process most tour deposits and some payments
using that firm’s own merchant number account rather than SBV’s number account.
This created a financial control problem for Journeys staff since they had to rely on
this outside call center to provide them with an accurate accounting of passenger
deposits and payments and timely submission to SBV. A Journeys official further
stated that in February 2006, the call center advised SBV that it did not want to
continue its relationship with Journeys. According to Journeys, its financial staff
made many requests to the call center to provide a detailed accounting of amounts
due to SBV. Journeys management stated that the call center was unresponsive to
these requests until Journeys submitted the final FY 2006 year-end analysis of
amounts owed to SBV.

SBV recovered about $607,000 from the call center and tour operators in FY 2007.
SBV Accounting staff performed further analysis and identified an additional $75,495
that is due SBV as of September 30, 2007. Of the $75,495 shortfall, $47,057 was a
result of the miscoding of a payment from another tour operator.

Data Entry Errors. For a June 2007 tour, both Journeys staff and the current call
center made data entry errors that resulted in SBV collecting less revenue than due
under the tour operator contract. Prior to making this tour available to the public
for booking, Journeys’ program manager electronically submitted an “Information
Sheet” to the call center containing all contract information, including pricing
details. However, she inadvertently submitted a single-passenger rate that was
$40 lower than required by the contract. Also, the call center made a second input
error when it published this passenger rate at an additional $50 lower than what
Journeys had previously submitted. Consequently, some passengers made tour

10
  Journeys management explained that the contractor held back some funds from each tour in
anticipation of passengers cancelling or changing their reservations, as the contract with SBV
allowed. The contractor was able to do this since passenger credit card charges went through the
contractor’s own merchant account. However, the credit card companies were already deducting
these amounts; therefore, cancellation amounts were being deducted twice. The contractor’s actions
effectively held back funds from Journeys that should have been sent promptly at the close of each
tour.



                                                 7
payments that were lower than the contract rate, resulting in lost revenue to SBV of
$720. As a result of our observation, SBV Journeys recovered $400 from the call
center, reflecting the call center’s portion of the input error, and subsequently
implemented procedures to more closely check contract data input for future
Journey’s tours.

Accounting Issues. SBV did not properly classify the amounts due from tour
operators and call centers in the Lawson accounting system. For example, SBV
should have recorded entries to accounts receivable to recognize amounts due from
contractors monthly as each tour ended. Instead, SBV delayed the recording of
receivables until after its 2006 fiscal year-end review. As a result, until the year-end
entry was made, SBV’s balance sheets for FYs 2005 and 2006 understated both
accounts receivable and deferred revenue. We also noted that not identifying the
shortfall in passenger payments until the end of FY 2006 increased the risk to SBV
that these payments might not have been recovered from the former call center
contractor.11

In our view, the monitoring deficiencies were caused by the lack of written contract
monitoring procedures, inadequately defined responsibilities, and lack of financial
staff. For example, Journeys did not have written procedures to define (i) how
Journeys program managers should monitor contractors and document its oversight,
and (ii) how Journeys financial staff should reconcile cash received versus cash due
from contractors. While Journeys program managers used a reconciliation form for
part of the reconciliation process, Journeys financial staff did not document their
reconciliations of the SBV accounting reports for all payments received to the final
tour operator invoices and call center reports. We noted that at the end of our
fieldwork Journeys initiated efforts to redesign its reconciliation form.

SBV also has not clearly defined the responsibilities of the Journeys program
manager, Journeys financial staff, and SBV accounting staff. Additionally, Journeys
management indicated that the primary reason SBV was not following up more
timely on amounts due from contractors was because the Journeys financial staff was
overburdened with only one full-time financial employee through most of FY 2006.




11
  In our view, timely recording of the accounts receivable for the outstanding balances due SBV would
have subjected the accounts to an aging analysis and thus Journeys could have monitored them more
closely for recovery purposes. Although SBV ultimately was able to recover all monies identified in
their analysis that was due to them from the contractor, SBV lost the opportunity to earn interest on
the funds. Based on available documentation, we noted that on some tours, there was a period of over
17 months in lost interest from the close of the tour until SBV received the funds. SBV accounting has
since implemented aging receivables reports which Journeys utilizes in tracking deposits and other
payments due for its tour operations.



                                                  8
Recommendations

We recommend that the Director, SBV Journeys:

  1. Develop written contract monitoring procedures, in coordination with the
     SBV Controller, that clearly define the responsibilities of the Journeys program
     manager and financial staff as well as the accountants in the SBV Accounting
     Department. These written procedures should require detailed monthly
     reconciliations of contractor activity, prescribe minimum requirements for
     documenting contractor oversight, and provide guidance on proper
     accounting treatment for tour activities.

  2. Conduct a detailed review of all tour activity codes for FY2007 and identify and
     collect any outstanding balances that may be due to SBV from the current call
     center operator.

SBV Did Not Adequately Monitor Revenue from the Flight Simulator
Contract

SBV overpaid the contractor and did not record the correct amount of concessions
revenue from flight simulator activities from August 2004 to January 2007. We
found that SBV miscalculated the proper amount of concessions revenue because it
inadvertently omitted credit card sales and applied an incorrect commission rate.
These errors, which resulted in an overpayment to the contractor of about $283,000
and a similar understatement in SBV reported concessions revenue, were caused by
the lack of written contract monitoring procedures, clearly defined responsibilities,
and staff resources, as well as a failure to perform periodic audits of contractor
receipts. The errors were detected by the SBV Concessions Manager in February
2007.

The current contractor operates motion ride simulators at both the Steven F. Udvar
Hazy Center and Mall locations of the National Air and Space Museum.




                                Flight simulator rides at NASM


                                           9
When the contractor began operations at the Udvar Hazy Center in December 2003,
it did not process credit card transactions at the simulators and the contract with
SBV did not address collection and deposit of credit card receipts. Subsequently, in
August 2005, the contractor began accepting credit cards. Since then, the contractor
and SBV collected simulator sales revenue by three different methods – cash at the
simulator sites, credit cards at the simulator sites, and sales at SBV theater box offices.


Cash collected at the simulator site and theater box office sales were deposited into
Smithsonian bank accounts. However, the contractor’s credit card sales were
processed through the contractor’s merchant credit card account and were deposited
into the contractor’s bank account. And, even though the contractor submitted sales
reports showing cash, credit card, and theater box office sales to Concessions
financial staff and to SBV Accounting, SBV omitted the credit card sales in its
calculations of SBV commission revenue until February 2007, when it detected the
longstanding error.

SBV also erred when it calculated the commissions due the contractor. Unlike SBV’s
other concession contracts, in which the concessionaire collects the revenue and
sends SBV a commission, for this contract SBV was responsible for calculating
commissions due the contractor. This contract provided that for annual sales
revenue up to a specified target, revenue would be divided according to agreed- upon
percentages. For annual sales revenue in excess of the target, SBV’s portion of the
proceeds increased.

For two of the last three contract years (calendar years 2004 and 2006) SBV
Accounting did not apply the correct commission rate for the respective periods
when annual sales exceeded the target. As a result, SBV significantly understated its
concessions revenue. We also noted that SBV Accounting sent sales report
worksheets and division preliminary financial statements to the Concessions
program and financial staff for review and approval and Concessions staff approved
payment documents that contained the inaccurate calculations.

After SBV Concessions detected the errors, SBV held back payments to the
contractor until the overpayment was fully recovered. In addition, SBV Accounting
prepared a detailed analysis of the adjustment needed to correct the understatement
of revenue as of September 30, 2007. We reviewed SBV’s analysis and verified their
calculations to supporting documentation.

In our view, these errors were caused by the lack of written contract monitoring
procedures and clearly defined responsibilities, high personnel turnover and lack of
financial staff, and a failure to perform periodic financial audits of cash and credit
card receipts.




                                            10
•   Concessions lacked written procedures for monitoring contractors and did not
    clearly define monitoring responsibilities for the concessions program manager,
    financial staff, and accountants in SBV’s Accounting Department. For example,
    SBV procedures did not specify who should receive documents from the
    contractor or who is responsible for performing reviews and reconciliations to
    ensure that revenue is promptly collected and accurately recorded. We noted
    that these responsibilities were not included in position descriptions of
    Concessions financial staff. Also, SBV did not have checklists or other
    requirements that specified what documents should be compared and reconciled.
    Written procedures and evidence of reviews are necessary to ensure that timely
    and effective contract oversight is consistently performed.

•   SBV experienced high staff turnover in both the Concessions financial area and
    the SBV Accounting Department. From August 2004 through September 2007,
    four different individuals performed Concessions financial duties. During this
    same period, six individuals held the Concessions accountant position in SBV
    Accounting, and two of the six were temporary contractors. Overall, as of
    October 2007, the SBV Accounting Department had five open positions, of which
    three were filled by temporary contractors. In addition, the Concessions financial
    analyst position was vacant.

•   SBV did not perform periodic audits of cash and credit card receipts. We noted
    the simulator contract provides that each party has the right to inspect, audit,
    make extracts from, and copy the other party’s financial and business records
    related to the performance of the contract. Best practices for revenue-generating
    contracts suggest that SBV should examine receipts on a random basis from the
    simulator operations and periodically accompany and observe the contractor’s
    employees during cash collection and counting.

To its credit, SBV has since implemented actions to address some of the contract
monitoring weaknesses. The SBV Controller established a policy requiring that all
journal entries into the accounting system be reviewed, approved, and initialed by a
supervisor. Also, as part of SBV’s month-end closing process, business divisions must
send a communication to SBV Accounting (via e-mail) confirming that they have
reviewed and approved the division preliminary financial statements. In addition,
the Concessions program director drafted an amendment to the contract simplifying
the procedures for handling both cash and credit cards, making it similar to the
process used by SBV with its other concessionaires.




                                         11
Recommendations

We recommend that the SBV Vice President for Concessions, working with the SBV
Controller:

    1. Develop written contract monitoring procedures that clearly define the
       responsibilities of the Concessions program manager and financial staff as
       well as the accountants in the SBV Accounting Department. These
       procedures should require detailed monthly reconciliations of contractor
       activity and prescribe minimum requirements for documenting contractor
       oversight.

    2. Establish procedures for periodic independent audits of contractor cash and
       credit card receipts, including review of daily cash settlement documents and
       observation of the daily cash counts.

We recommend that the SBV CFO, working with the COO, Retail:

    1. Implement a more effective strategy for recruiting and retaining
       financial and accounting staff for key contract monitoring functions.

Other Matters

We also performed a limited review of SBV’s contractor oversight for its Licensing
and Catalogue divisions. We found their oversight generally adequate and we are not
making any formal recommendations at this time. A brief summary follows.

Licensing

We selected three agreements from two of the four Licensing divisions for review,
Product Development and Licensing (PDL) and SI Books. These agreements
accounted for $2.2 million out of $4.6 million in revenue generated from all
Licensing agreements over $75,000 during the audit period.

Based on our limited review, we found that SBV provided effective oversight to
ensure its contractors complied with key contract terms and performance standards.
For example, Licensing prepares quarterly updates on the progress of each large
contract. Further, PDL staff monitors product quality on a regular basis through
facility visits, attendance at trade shows, and reviews of all product-related
documentation, including specification sheets for new products, and obtaining input
from museum curators before final approval. SI Books staff review quarterly sales
reports, attend marketing and editorial meetings, and review books to ensure
appropriate content.




                                         12
Licensing obtains monthly and quarterly financial reports from each of these
contractors and compares cost and pricing data to the contract terms as well as
reported sales to estimated budgeted figures. While the monthly financial reports are
not independently certified, some contracts require that the contractor furnish an
independent CPA-certified financial statement of Smithsonian sales in the event that
the Smithsonian has a reasonable basis for needing this statement. Also, the
contracts generally provide SBV the right to conduct audits of the contractor’s books
and records. Licensing has contracted with a private firm to conduct financial audits
of three of its contractors, effective FY 2008.

We also note that Licensing has developed draft procedures for monitoring
contractor operations. We believe these procedures provide a good structure for
overall contract oversight and encourage Licensing to finalize the procedures as soon
as practicable.

Catalogue

Catalogue contracts out its catalogue transaction services to a fulfillment contractor.
Fulfillment services include web order processing, inbound call handling for orders,
warehousing and distribution, credit card processing, and information management.
The contract in place at the time of our review was effective from May 2002 through
early May 2007. SBV awarded a contract to a new fulfillment contractor in May 2007
when the prior contract expired.

Based on our limited review of accounting entries, we did not find any discrepancies
that warranted further review other than minor differences between detail and
monthly summaries, which were less than one-tenth of 1 percent of total sales. These
minor differences resulted from cut-off dates and timing differences between the
reported months.

We observed that management uses numerous reports to track inventory and
contractor operating performance. We selected a key performance indicator from the
contract to review, the abandoned call rate, which indicates the number of
customers’ calls that the call center did not answer when customers call in orders.
The contract requirement was that this rate should not exceed 3 percent. In our
review of six sample months we found one month - December 2004, at the height of
the holiday season when call volume was extremely high - where the abandoned call
rate was 4.12 percent.

Catalogue operations experienced a much worse abandoned call rate problem the
following year during the first quarter of FY 2006. In an April 2006 assessment, the
SBV CFO identified about $600,000 in lost revenue attributable to an under-
forecasting of call orders and a staff shortage at the contractor’s call center. As a
consequence, the call center could not handle call volumes and dropped over 5,000
call orders, reflecting an abandoned call rate that exceeded 14 percent. Because much


                                          13
of the Catalogue division’s annual profits are earned during the holiday season in the
first quarter of each fiscal year, Catalogue could not recover the lost revenue and
reported a disappointing net loss for FY 2006 of over $100,000 versus a budgeted net
gain of $1.8 million. According to Catalogue management and our test sample
review of subsequent months’ reports, the problem with dropped calls did not recur
in FY 2007.12

SUMMARY OF MANAGEMENT RESPONSE

Management’s February 5, 2008, response to our draft report concurred with all five
recommendations. By June 30, 2008, Journeys’ management will conduct a review of
FY 2007 tours to ensure collection of any outstanding balances due to SBV. For both
Journeys and Concessions, by September 30, 2008, management will develop
contract monitoring procedures that clearly delineate responsibilities between
program and financial staff as well as the SBV Accounting department, including
more detailed and timely reconciliations. In addition, Concessions management will
formulate appropriate policies and procedures for periodic independent audits of
contractor receipts and documentation. Moreover, management will continue to
recruit for any existing open positions and document roles, responsibilities and
procedures in the contract oversight functions to ensure mitigation of any future
vacancies.

With regard to the facts presented in the report, SBV indicated that subsequent to the
issuance of the draft report, it located supporting detail for $286,148 of the $310,00013
shortfall related to credit card refunds.

The full text of management’s response is included as Appendix B.

OFFICE OF THE INSPECTOR GENERAL COMMENTS

Management’s planned actions respond to the recommendations, and we consider
the recommendations resolved. Regarding the additional detail SBV provided, the
information only covered the period October 2005 to February 2006, while the
$310,000 unsupported shortfall was for the period April 2005 to September 2006.
The additional documentation SBV provided was still not sufficient to fully reconcile
the shortfall.

We appreciate the courtesy and cooperation of Smithsonian representatives during
this audit.


12
   Beyond contract oversight issues, we also observed that SBV Catalogue’s year-end financial results
for FY 2007 were about break-even, $500,000 short of its budgeted net gain, and only a small
improvement from the loss in FY 2006. We urge SBV to examine all the causes for the poor financial
performance in its Catalogue operations and implement appropriate measures to restore profitability.
13
   We rounded to $310,000.


                                                 14
APPENDIX A. SCOPE AND METHODOLOGY

Our review focused on revenue-generating contracts greater than $75,000 from fiscal
year (FY) 2004 through the first quarter of FY 2007 in the Journeys, Concessions, and
Licensing divisions. We also conducted a limited review of the fulfillment contracts
for the Catalogue and Magazine divisions that support revenue generation. For each
of these divisions, we interviewed division program managers and financial staff to
determine how contracts are monitored. We reviewed contracts and licensing
agreements to determine contract terms. We interviewed SBV Accounting to
determine how SBV ensures that accounting information is accurately recorded. We
detail below the work we did in each division.

JOURNEYS

We selected five tour operator contracts with revenues totaling $4,714,891 out of a
total of $7,174,501 in revenue generated from all agreements over $75,000 for
FY 2005 through the first quarter of FY 2007. Based on observations from our initial
walkthrough of the process, we also included two additional contracts under the
$75,000 limit. From these seven contracts, we limited our test to seven tours in
FY 2006 and FY 2007.

For six of these tours, we traced all data listed on the Tour Reconciliation Sheet back
to the supporting documentation. This work included verifying passenger payments
from the Call Center listing to the tour operator’s invoice to the Activity
Reconciliation report downloaded from Lawson and the related general ledger
entries. We verified passenger rates per the contract rate sheets to the Journeys
Information Sheet, which is used to transmit rates to the Call Center. The seventh
tour we selected was actually five Travel Adventure tours listed for a one-month
commission reporting period (November 2006). For the November 2006
Commission report, we verified each line-item commission percentage for all five
tours. We traced the number of passengers and gross receipts back to the periodic
statements and invoices maintained by Journeys staff for each tour. We next traced
the commission to the bank wire statement and general ledger entries. We also
visited the current call center for additional follow-up review on one contract. We
obtained study and team leader reports and passenger evaluation questionnaires for
selected tours in our sample.

CONCESSIONS

We selected two contracts, one food concession contract and one flight simulator
contract, with revenues totaling $11,863,511 out of $25,690,603 in revenue generated
from all agreements over $75,000 for FY 2004 through the first quarter of FY 2007.
In addition to interviews with SBV staff, we also met with contractor management
officials and reviewed the contractor’s internal controls over cash receipts and
financial reporting. We reviewed monthly financial reports, certified annual financial


                                          15
statements and audited consolidated financial statements from the contractors.

For the food service contract, we selected five months for detailed review: March
2007, December 2006, June 2006, August 2005, and August 2004. We traced
concession payments to contractor sales reports, general ledger entries, and bank
statements. For the simulator contract, we reviewed the revenue adjustment
prepared by SBV Accounting and verified their calculations by reviewing the
supporting documentation for selected months, including July 2007, March 2007,
December 2006, June 2006, and August 2005. We examined documents from the
contractor, reports prepared by the Concessions financial staff, monthly Sales Report
worksheets prepared by SBV Accounting, bank statements, and e-mails.

LICENSING

We selected three agreements from two of the four Licensing divisions for review,
Product Development & Licensing (PDL) and SI Books. These three agreements
provided revenues totaling $2,158,683 out of $4,587,666 in revenue generated from
all agreements over $75,000 for FYs 2004 through the first quarter of FY 2007 for the
Licensing group.

For the PDL contracts, we selected royalty, development, and product fees as
required for each contract for the following periods: May 2006, January-June 2005,
January-March 2006 and October-December 2006. For the SI Books contract, we
reviewed guaranteed payments and development fees for 2005 and 2006. We
reviewed monthly statements and documentation verifying these receipts, including
bank lockbox records and monthly statements, cancelled checks, input vouchers, and
general ledger entries. We also reviewed a Licensing quarterly update report.

CATALOGUE

We conducted a limited review of financial and operational monitoring procedures
for the Catalogue division’s fulfillment contract. We reviewed accounting entries
that record revenue and tested one key performance measure required by the
contract. We interviewed financial and operational managers as well as SBV
accounting officials regarding key reports, accounting procedures, and general ledger
entries. We selected four months, August 2004, December 2004, June 2006, and
March 2007, and compared general ledger entries to monthly reports supporting
each entry. We reviewed the following financial reports: Shipped Sales by
Department, Product Sales-Cost, Inventory Value, Web Sales, and the General
Ledger Extract showing entries made. We traced revenue for these months to the
income statements. From the operations side, we reviewed one of the key reports,
the Call Center Performance Report. We selected the Call Center Performance
reports for these four months plus two additional months (November and December
2006), for further review and tested the abandoned call rates. These reports track, in
part, the number of abandoned calls by day and by month that the call center did not


                                         16
answer from customers who called to make an order.

MAGAZINE

We conducted a limited review of financial and operational monitoring procedures
for the Magazine division’s fulfillment contract. We reviewed accounting entries that
record revenue and tested two key performance measures required by the contract.
We interviewed financial and operational managers as well as SBV accounting
officials regarding key monthly reports, accounting procedures, and general ledger
entries. We reviewed the SAS 70 Independent Service Auditor’s Report on Controls
Placed in Operation and Tests of Operating Effectiveness for the period of May 31,
2006, to December 8, 2006 for the contractor. We selected four months, August
2004, August 2005, June 2006, and March 2007, and compared the contractor’s
monthly summary financial reports to general ledger entries. From the operations
side, we reviewed one of the key reports, the Performance Scorecard report. We
selected the Performance Scorecard report for four months, March 2005, June 2006,
January 2007, and March 2007, for further review and tested the abandoned call rate
and the timeliness of mailings.

We conducted our audit in Herndon, Virginia, and Washington, D.C. from February
to December 2007 in accordance with Government Auditing Standards as prescribed
by the Comptroller General of the United States.




                                         17
APPENDIX B. MANAGEMENT RESPONSE




                       18
19
20
APPENDIX C. CONTRIBUTORS TO THE REPORT

The following individuals from the Smithsonian Office of the Inspector General
contributed to this report:

Stuart A. Metzger, Assistant Inspector General for Audits
Brian W. Lowe, Supervisory Auditor
Lisa V. Leonard, Senior Auditor
William J. Balach, Senior Auditor




                                          21
